             ALLEGATION OF COST MISCHARGING BY
       DEFENSE TELECOMMUNICATIONS SERVICE-WASHINGTON



    Report Number 98-119                           April 22 1998
I


                 Office of the Inspector General
                     Department of Defense
    Additional Information and Copies

    To obtain additional copies of this audit report, contact the Secondary Reports
    Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
    (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
    Giznerai, DOD Home Page at: WWW.DODIG.OSD.MIL.

    Suggestions for Audits

    To suggest ideas for or to request future audits, contact the Planning and
    Coordination Branch of the Analysis, Planning, and Technical Support
    Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
    and requests can also be mailed to:

                      OAIG-AUD (ATTN; APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

    Defense Hotline

    To report fraud, waste,or abuse, contract the Defense Hotline by calling
    (800) 424 9098; by sending an electronic message co
    Hotline@DODIG. OSD.MIL; or by writing to the Defense Hotline, The
    Pentagon, Washington, D.C. 20301- 1900. The identity of each writer and caller
    is fully protected.
L




Acronyms

DTS-W                 Defense Telecommunications Service- Washington
NCR                   National Capital Region
TEMPO                 Telecommunications Modernization Project
                                                                           April 22, 1998


MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Audit Report on Allegation of Cost Mischarging by Defense
         Telecommunications Service-Washington (Report No. 98-l 19)


        We are providing this audit report for your information and use. We conducted
the audit in response to a complaint to the Defense Hotline. Because this report
contains no findings or recommendations, no written comments were required, and
none were received.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Robert M. Murrell, Audit Program Director, at
(703) 6049210 (DSN 664-9210) email rmurrell@dodig.osd.mil or Ms. Judith
I. Padgett, Audit Project Manager, at (703) 604-9217 (DSN 664-9217) email
jipadgettadodig .osd.mil. See Appendix B for the report distribution. The audit team
members are listed inside the back cover.




                                         David K. Steensma
                                  Deputy Assistant Inspector General
                                            for Auditing
                           Office of the Inspector General, DOD
Report No. 98-119                                                      April 22, 1998
  (Project No. 8CC-8001)

                     Allegation of Cost Mischarging by
              Defense Telecommunications Service-Washington

                                  Executive Summary

Introduction. We performed this audit in response to a complaint to the Defense
Hotline. The complainant alleged that Bell Atlantic was charging the DOD, through the
Defense Telecommunications Service-Washington (DTS-W), for 5,000 telephone lines
that the DTS-W was not showing as part of its inventory.

The DTS-W provides telecommunications equipment, facilities, and services to DOD
components in the National Capital Region. It manages approximately 177,000 tele-
phone lines and maintains a consolidated inventory of telephone lines, cell phones,
pagers, calling cards, and other telecommunications products. DTS-W relies on
customer reimbursements to pay vendors and operating costs. As a reimbursable
operation, the DTS-W cannot incur a profit or loss.

Audit Objectives. Our primary audit objective was to determine whether DTS-W
charged customers based on accurate telecommunications billing data. We also
evaluated the management control program as it applied to the primary objective.

Audit Results. The allegation of cost mischarging by Bell Atlantic through DTS-W
was unsubstantiated. Bell Atlantic did not bill DOD for telephone lines that did not
exist. In 1995, at the request of DTS-W, the MITRE Corporation performed a study
of the DTS-W proration rates and the average cost per line. The study results showed
that the DTS-W inventory listed 5,000 more lines than the Bell Atlantic inventory.
The inventory difference had no impact on the Bell Atlantic charges to DOD because
Bell Atlantic billed DOD based on the capacity of a private telecommunications network
rather than a per telephone line basis or line inventory.

The management controls we reviewed were adequate. See Appendix A for details on
the management control program.

Management Comments. We provided a draft of this report on March 25, 1998.
Because this report contains no recommendations, written comments were not required,
and none were received. Therefore, we are publishing this report in final form.
Table of Contents
Executive Summary                       i

Part I - Audit Results

      Audit Background                  2
      Audit Objectives                  2
      Allegation of Cost Mischarging    3

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology
        Prior Coverage
        Management Control Program
      Appendix B. Report Distribution
Part I - Audit Results
Audit Background
     On August 28, 1997, the Defense Hotline received a call from a confidential
     source alleging that Bell Atlantic billed the DOD, through the Defense
     Telecommuni-cations Service-Washington (DTS-W), for telephone lines that
     DTS-W did not show as part of its inventory. The source alleged that a 1993
     MITRE study of Bell Atlantic and DTS-W revealed a 5,000 telephone line
     discrepancy that continued to produce an annual overpayment of $2 million to
     Bell Atlantic.

     The DTS-W Mission. DTS-W provides telecommunications equipment,
     facilities, and services to DOD components in the National Capital Region
     (NCR). DTS-W manages approximately 177,000 telephone lines and maintains
     a consolidated inventory of telephone lines, cell phones, pagers, calling cards,
     and other telecommunications products.

     Funding DTS-W Operations. DTS-W does not maintain a revolving fund to
     pay operating expenses such as salaries and data processing services, or
     telecommunications equipment and services. Instead, DTS-W relies on
     customer reimbursements to pay vendors and operating costs. As a
     reimbursable operation, DTS-W cannot incur a profit or loss.

     The Resource Service Washington, which serves as the accounting branch for
     DTS-W, requests and receives reimbursement for DTS-W services. The
     Resource Service Washington also remits funds to the Defense Finance and
     Accounting Service-Indianapolis for vendor payments.

     DOD Guidance for Telecommunications Service in the NCR. DOD
     Instruction 5335.1, “Telecommunications Service in the National Capitol
     Region, ” November 3, 1993, assigns administration and oversight of the
     DTS-W to the Secretary of the Army. DOD components within the NCR are
     responsible for designating a Telecommunications Service Control Officer. The
     Telecommunications Service Control Officer is responsible for monitoring,
     documenting, and maintaining records of telecommunications expenditures,
     requirements, requests, inventories, and for conducting biennial revalidations of
     requirements.



Audit Objectives

     The primary audit objective was to determine whether DTS-W charged
     customers based on accurate telecommunications billing data. We also
     evaluated the adequacy of management controls related to the primary audit
     objective. See Appendix A for a discussion of the audit process, prior
     coverage, and the review of the management control program.




                                         2
           Allegation of Cost Mischarging
           The allegation of cost mischarging by Bell Atlantic through DTS-W was
           unsubstantiated. Bell Atlantic did not bill DOD for telephone lines that
           did not exist. Under the Telecommunications Modernization Project
           (TEMPO) contract, Bell Atlantic charged DOD agencies, through
           DTS-W, for the capacity of the telecommunications network and not for
           the number of telephone lines. DTS-W maintained an inventory of each
           customers telephone lines connected to the telecommunications network,
           and prorated common charges and DTS-W overhead costs based on that
           inventory. Bell Atlantic also maintained an inventory that showed the
           number of lines used by each DOD organization in the NCR. In 1995, at
           the request of DTS-W, MITRE Corporation reconciled the Bell Atlantic
           and the DTS-W inventories. MITRE identified 5 ,ooO lines in the
           DTS-W inventory that did not appear in the Bell Atlantic inventory.
           That inventory difference had no impact on the Bell Atlantic charges to
           the DOD because Bell Atlantic did not bill charges based on a line
           inventory.


TEMPO Provides Service to the National Capital Region
    The TEMPO contract, awarded to Bell Atlantic in November 1991, provides
    integrated voice and data telecommunications service to DOD organizations in
    the NCR. The system interconnects with the Defense Information Systems
    Network, Federal Telecommunications System 2000, and the domestic and
    international long distance telephone systems. Under the TEMPO contract, Bell
    Atlantic bills the DOD based on the capacity of a private telecommunications
    network including the hardware, software, maintenance, and service that
    comprise and support that network. The TEMPO contract does not provide for
    a per telephone line charge.


MITRE Study Compared Inventories
    The hotline complainant alleged that in 1993, MITRE Corporation reviewed the
    accounting records for services between DTS-W and Bell Atlantic, and found
    that Bell Atlantic charged DOD for 5,000 telephone lines that were not on the
    DTS-W inventory. The hotline complainant heard about the MITRE study at a
    meeting, but had not read it. We contacted DTS-W personnel regarding the
    1993 MITRE study. DTS-W officials were not certain about the existence of
    the report and referred us to the company. MITRE personnel stated that they
    performed engineering, billing, and other studies for DTS-W. No study was
    conducted in 1993 to reconcile inventories as the hotline complainant had
    alleged. Nevertheless, MITRE personnel identified a report issued in 1996 that
    discussed a discrepancy of 5,000 lines between the DTS-W and Bell Atlantic
    inventories. In 1995, at the request of DTS-W, MITRE Corporation personnel
    conducted a study of the DTS-W proration rates and the average cost per line.
    MITRE personnel analyzed records obtained from the DTS-W billing system for


                                       3
Allegation of Cost Mischarging


      the period September 1995 through August 1996. The results of the study
      showed that the DTS-W inventory listed 5,000 more lines than the Bell Atlantic
      inventory.


DTS-W Acted on MITRE Recommendations

       DTS-W took corrective actions in response to the MITRE study. DTS-W
       corrected inventory records and adjusted proration rates to correspond to the
       MITRE findings. In June 1997, a contractor started to periodically reconcile
       the DTS-W and Bell Atlantic inventory of lines. As of November 17, 1997, the
       Bell Atlantic inventory showed 59 lines that the DTS-W inventory did not show.
       The difference could be traced to the time that each organization updated its
       inventory. Bell Atlantic personnel updated their inventory when technicians
       completed line installation or disconnection. DTS-W personnel updated their
       inventory when DTS-W received charges for the installation from Bell Atlantic
       or notification of a disconnection. Although installing a line results in a one-
       time charge from Bell Atlantic, the record of the line in the Bell Atlantic
       inventory does not result in a recurring charge.


Line Discrepancies Produced no Monetary Effect
       The 5,000-line discrepancy that MITRE identified did not have a monetary
       effect on the DOD because Bell Atlantic billed according to the network capacity
       provided to DTS-W rather than the number of lines recorded on its inventory.
       In addition, because the 5,000 excess lines were on the DTS-W inventory rather
       than the Bell Atlantic inventory, the excess lines would not have resulted in
       charges from Bell Atlantic.




                                           4
Part II - Additional Information
Appendix A. Audit Process

Scope and Methodology
     Work Performed. We reviewed the statement of work for the TEMPO
     contract, the MITRE study dated November 26, 1996, DTS-W billing records
     and other documentation. We interviewed DTS-W and Defense Supply
     Service-Washington personnel to understand how DTS-W served and charged
     its customers for telecommunications services under the TEMPO contract. We
     also interviewed DTS-W customers and contractors. We restricted our work to
     base communications in the NCR.

    Computer-Processed Data. We did not assess the reliability of the
    computer-processed billing data. We were able to use other documentation to
    determine whether the allegation was substantiated. We did not use statistical
    sampling procedures for this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD and contractors that provided services to DTS-W.
    Further details are available upon request.

    Audit Types, Dates, and Standards. We performed this economy and
    efficiency audit from October 1997 through January 1998 in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DOD.


Prior Coverage
    Inspector General, DOD, Evaluation Report No. 96-174, “Defense
    Telecommunications Service, Washington, n June 24, 1996. The report states
    that the telecommunications support missions of DTS-W and the Single Agency
    Manager for Pentagon Information Technology Services overlapped. The report
    also states that the DTS-W proposal for a new archive billing system was not
    cost-effective and customer service was not effective. The report recommended
    that the Army perform a cost-benefit analysis to determine the most efficient
    and effective way to manage telecommunications support services within the
    NCR. The report also recommended that DTS-W:

           o stop actions to procure a new archive system (electronic optical disk
    imaging system),

           o develop a customer service program,
                                                        Appendix A. Audit Process

             o train managers to improve communications       with DOD Component
      customers, and

              o emphasize management controls over billing and accounting processes,
      and unliquidated obligations reviews and reconciliations.

DTS-W management concurred with the recommendations.

Management Control Program
      DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
      requires DOD organizations to implement a comprehensive system of
      management controls that provides reasonable assurance that programs are
      operating as intended and to evaluate the adequacy of the controls.

      Scope of Review of the Management Control Program. We reviewed the
      adequacy of DTS-W management controls over the billing process. DTS-W did
      not identify the billing process as an assessable unit. Instead, DTS-W assessed
      the billing process along with a number of other administrative functions under
      the category of general management controls. In FY 1997, the Army inspectors
      conducted a survey on DTS-W. The report did not disclose management control
      weaknesses related to the billing process. DTS-W personnel did not perform a
      self-evaluation of management controls in FY 1997. DTS-W personnel stated that
      they performed a management self-evaluation only when an outside inspection or
      audit reports identified DTS-W material management control weaknesses. This
      policy is prudent only if there is regular and comprehensive audit and inspection
      coverage of DTS-W. Otherwise, it would be advisable for accountable DTS-W
      officials to be more proactive in self-assessing their controls.

      Adequacy of Management Controls. The DTS-W management controls that
      we reviewed were adequate.




                                         7
Appendix B. Report Distribution

Of&e of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, Defense Telecommunications Service-Washington
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office
                                                  Appendix B. Report Distribution




Non-Defense Federal Organizations and Individuals (Cont’d)
Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                         9
Audit Team Members

 The Contract Management Directorate, Office of the Assistant Inspector
 General for Auditing, DOD, produced this report. Personnel of the Office of
 the Inspector General, DOD, who contributed to the report are listed below.

 Paul J. Granetto
 Richard B. Jolliffe
 Robert M. Murrell
 Frank C. Sonsini
 Judith I. Padgett
 Wei K. Wu
 Dennis R. Wokeck
 Carla D. Aikens
 Kyle M. Franklin
 Elizabeth Ramos
